No. 19-1181

 

IN THE

Supreme Court of the United States

THE ESTATE OF THOMAS STEINBECK, GAIL KNIGHT
STEINBECK, THE PALLADIN GROUP, INC.,
Petitioners,

¥.

WAVERLY SCOTT KAFFAGA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICUS CURIAE DIGITAL JUSTICE
FOUNDATION IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,124 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 5, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
